No. ______________

In the
Supreme Court of the United States
___________
Oscar Daniel Rios Benitez,
Petitioner,
v.
United States of America,
Respondent.
___________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
___________
PETITION FOR A WRIT OF CERTIORARI
___________
PETITIONER’S APPENDIX
Kevin Joel Page
Assistant Federal Public Defender
Federal Public Defender’s Office
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214.767.2746
joel_page@fd.org

APPENDIX TABLE OF CONTENTS

Appendix

App. A

App. B

Document Description

Opinion of the United States Court
of Appeals for the Fifth Circuit.
United States of America v. Oscar
Rios Benitez, No. 20-10494.

Judgment and Sentence of the United
States District Court Northern District
of Texas. United States of America v.
Oscar Rios Benitez, USDC No. 4:20CR-1-1

i

Appendix Page Range

1–2

1–3

APPENDIX A

Case: 20-10494

Document: 00515700577

Page: 1

Date Filed: 01/08/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 8, 2021

No. 20-10494
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Oscar Daniel Rios Benitez,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CR-1-1
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Oscar Daniel Rios Benitez appeals his 18-month, within-guidelines
sentence for illegal reentry following deportation. Rios Benitez asserts that
the district court plainly erred by characterizing his prior Texas conviction
for assault-family violence under Tex. Penal Code Ann. § 22.01(a)(1),

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10494

Document: 00515700577

Page: 2

Date Filed: 01/08/2021

No. 20-10494

(b)(2) as a crime of violence under 18 U.S.C. § 16 and, thus, as an aggravated
felony pursuant to 8 U.S.C. § 1101(a)(43)(F) and 8 U.S.C. § 1326(b)(2). He
contends that Texas assault-family violence does not qualify as an aggravated
felony because it can be committed recklessly. The Government moves for
summary affirmance, asserting that Rios Benitez’s argument is foreclosed by
United States v. Gracia-Cantu, 920 F.3d 252 (5th Cir.), cert. denied, 140 S. Ct.
157 (2019).
As Rios Benitez correctly concedes, his argument is foreclosed. See
Gracia-Cantu, 920 F.3d at 253–55 (holding that assault causing bodily injury
under Tex. Penal Code Ann. § 22.01(a)(1) and (b)(2) is a crime of
violence under § 16(a)). He raises the issue only to preserve it for future
review. Consequently, the Government is “clearly right as a matter of law,”
such that “there can be no substantial question as to the outcome of the
case.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the district court’s judgment is AFFIRMED. The
Government’s alternative motion for an extension of time to file a brief is
DENIED AS MOOT.

2

APPENDIX B

Case 4:20-cr-00001-Y Document 32 Filed 05/15/20

Page 1 of 3 PageID 71

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:20-CR-001-Y(1)
Douglas A. Allen, assistant U.S. attorney
Michael A. Lehmann, attorney for the defendant

OSCAR DANIEL RIOS-BENITEZ

On January 15, 2020, the defendant, Oscar Daniel Rios-Benitez, entered a plea of guilty to count one of the
one-count information. Accordingly, the defendant is adjudged guilty of such count, which involves the following
offense:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE CONCLUDED

COUNT

8 U.S.C. § 1326(a) and (b)(2)

Illegal Reentry After Deportation

December 11, 2019

1

The defendant is sentenced as provided in pages two through three of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 for count one of the one-count
information.
The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed May 12, 2020.

_______________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed May 15, 2020.

App. B 001

Case 4:20-cr-00001-Y Document 32 Filed 05/15/20

Page 2 of 3 PageID 72

Judgment in a Criminal Case
Defendant: Oscar Daniel Rios-Benitez
Case Number: 4:20-CR-001-Y(1)

Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, Oscar Daniel Rios-Benitez, is hereby committed to the custody of the Federal Bureau of
Prisons to be imprisoned for a term of 18 months on count one of the one-count information.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of three
years on count one of the one-count information.
Under 18 U.S.C. § 3583(d), as a condition of supervised release upon the completion of the sentence of
imprisonment, the defendant shall be surrendered by the Federal Bureau of Prisons to a duly authorized immigration
official for deportation in accordance with the established procedures provided by the Immigration and Nationality
Act, 8 U.S.C. § 1101 et seq. As a condition of supervised release, if ordered deported, the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant shall
also comply with the standard conditions recommended by the U.S. Sentencing Commission at §5D1.3(c) of the
Sentencing Guidelines, and shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

(14)
(15)
(16)
(17)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer in a manner and frequency directed by the Court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court;
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer;
not commit another federal, state, or local crime;
not unlawfully possess illegal controlled substances;
shall not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the probation officer as directed by the probation
officer, as authorized by the Justice for All Act of 2004;

App. B 002

Case 4:20-cr-00001-Y Document 32 Filed 05/15/20

Page 3 of 3 PageID 73

Judgment in a Criminal Case
Defendant: Oscar Daniel Rios-Benitez
Case Number: 4:20-CR-001-Y(1)
(18)

(19)
(20)

Judgment -- Page 3 of 3

report in person to the probation office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons, or in which the defendant makes entry into the United
States, within 72 hours of release or entry;
not illegally re-enter the United States, if deported, removed, or allowed voluntary departure, and
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of placement on probation and at least two periodic drug tests thereafter, as
determined by the court.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___________________________ to ____________________________________
at ____________________________________________________________, with a certified copy of this judgment.

United States marshal

BY ________________________________
deputy marshal

App. B 003

